Report No. D-2008-062         March 10, 2008




     Government Purchase Card Controls at
        Headquarters, DoD Dependents
              Schools-Europe
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APC                   Agency Program Coordinator
DoDDS                 Department of Defense Dependents Schools
DoDEA                 Department of Defense Education Activity
FAR                   Federal Acquisition Regulation
GPC                   Government Purchase Card
IG                    Inspector General
MCC                   Merchant Category Code
OIG                   Office of Inspector General
                Department of Defense Office of Inspector General
Report No. D-2008-062                                                       March 10, 2008
  (D2007-D000FJ-0180.000)

             Government Purchase Card Controls at Headquarters,
                     DoD Dependents Schools-Europe


                                 Executive Summary
Who Should Read This Report and Why? DoD Education Activity cardholders,
billing officials, and approving officials should read this report because it discusses the
administration and internal controls for the DoD Dependents Schools European
Government Purchase Card Program.

Background. The DoD Dependents Schools-European headquarters includes an area
office in Wiesbaden, Germany, and a procurement office in Mainz-Kastel, Germany. For
this report, we reviewed transactions from both the area office and the procurement
office. Headquarters cardholders incurred $37,196,492.62 in charges against their
purchase cards for the period of review, March 1, 2006, through April 29, 2007. A
Government Purchase Card can be used either as a method of procurement or as a
method of payment.

Results. For the transactions we reviewed, Headquarters, DoD Dependents
Schools-Europe effectively managed its Government Purchase Card Program. Our audit
of the purchase card transactions did not identify any material internal control
weaknesses. We reviewed 163 transactions (valued at $8,561,833.09) and, except for one
transaction, all the transactions were proper, legal, and reasonable, and satisfied a bona
fide need. One purchase transaction had a discrepancy; however, the DoD Dependents
Schools-Europe agency program coordinator identified the improper purchase, and
management took appropriate action to correct it prior to our review. See the
Background section of the report for a discussion of the review of internal controls.

Management Comments. We provided a draft of this report on December 6, 2007. No
written response was required and none was received. Therefore, we are publishing this
report in final form.
Table of Contents
Executive Summary                                            i

Background                                                  1

Objectives                                                  2

Review of Internal Controls                                 2

Controls Over the Use of the Government Purchase Cards at
Headquarters, DoDDS-Europe                                  3

Appendixes
     A. Scope and Methodology                                8
         Prior Coverage                                      9
     B. Report Distribution                                 10
Background
    The DoD Office of Inspector General (OIG) is required by section 2784, title 10,
    United States Code to perform periodic audits of the DoD Government Purchase
    Card Program to identify:

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than a
           purchase card in order to better aggregate purchases and obtain lower
           prices.

    Government Purchase Card. The General Services Administration SmartPay
    program provides purchase cards to Federal employees to make official
    Government purchases.

    The Government Purchase Card (GPC) is the preferred method to order and to
    pay for micro-purchases, according to Federal Acquisition Regulation
    (FAR) 13.2, “Actions At or Below the Micro-Purchase Threshold.” Use of the
    purchase card as a procurement and payment tool for micro-purchases is also
    outlined in FAR 13.301, “Governmentwide Commercial Purchase Card.”

    FAR 2.101, “Definitions,” September 28, 2006, defines a micro-purchase as “an
    acquisition of supplies or services using simplified acquisition procedures” that
    are available for purchases that do not exceed a given micro-purchase threshold.
    The micro-purchase threshold during our period of review was initially $2,500.
    The threshold was increased to $3,000 in September 2006. The increased
    threshold did not affect the results of our review. For purchases made outside the
    United States, the GPC single purchase limit is $25,000. Defense Federal
    Acquisition Regulation Supplement 213.301, “Governmentwide commercial
    purchase card,” February 12, 2007, allows cardholders to make a purchase that
    exceeds the micro-purchase threshold but does not exceed $25,000 for purchases
    made outside the United States for use outside the United States.

    The GPC may be used as an ordering and payment mechanism for orders above
    the micro-purchase threshold. When used as an ordering and payment mechanism,
    contractors may bill against the card. When the order is delivered, the contractor
    directly bills the purchase card account instead of issuing an invoice to the
    agency.

    DoD Education Activity. The DoD Education Activity (DoDEA) is a
    subordinate field activity of the Under Secretary of Defense for Personnel and
    Readiness. DoDEA operates schools throughout the world and provides education
    from preschool through Grade 12 for eligible dependents of Armed Forces
    members and Federal Government civilians.



                                         1
     DoD Dependents Schools Europe. For this report, we reviewed internal controls
     and GPC transactions at the area and procurement offices at Headquarters, DoD
     Dependents Schools (DoDDS) Europe . The area office is located in Wiesbaden,
     Germany. Its cardholders use their purchase cards to acquire goods and services.
     The procurement office is located in Mainz-Kastel, Germany. Its cardholders
     primarily use their purchase cards as a method of payment for contracts.

Objectives
     Our audit objective was to assess whether the use of GPC at Headquarters,
     DoDDS-Europe was in compliance with applicable laws and regulations. We also
     reviewed management controls over the use of the GPC. See Appendix A for a
     discussion of the scope and methodology.

Review of Internal Controls
     The Headquarters, DoDDS-Europe internal controls over the use of its GPC were
     adequate. Our review of 163 purchase card transactions disclosed no material
     internal control weaknesses.




                                        2
           Controls Over the Use of the Government
           Purchase Cards at Headquarters,
           DoDDS-Europe
           Headquarters, DoDDS-Europe effectively managed its GPC Program. We
           examined a total of 163 purchase card transactions (50 area office
           transactions valued at $118,940.26 and 113 procurement office
           transactions valued at $8,442,892.83). Our review of the 163 purchase
           card transactions did not identify any material internal control weaknesses.
           All the transactions except for one were proper, legal, and reasonable, and
           satisfied a bona fide need. One purchase transaction had a discrepancy;
           however, the DoDDS-Europe agency program coordinator (APC)
           identified the improper purchase, and management took appropriate
           action. Therefore, the Headquarters, DoDDS-Europe GPC Program
           complied with applicable DoD and DoDEA regulations governing the use
           of the GPC.

Purchase Card Transactions
    From March 2006 through April 2007, Headquarters, DoDDS-Europe had
    2,328 purchase card transactions valued at $37,196,492.62. Headquarters,
    DoDDS-Europe consisted of two offices: an area office and a procurement office.

    Area Office Transactions. From the universe of 1,058 purchase card
    transactions (valued at $1,088,995.11) from area office cardholders, we
    judgmentally selected 50 transactions for review as shown in Table 1.


        Table 1. DoDDS-Europe Area Office Sample Transactions
                                      Transactions         Transactions
               Area Office             Reviewed            Dollar Value
     Director’s Office                            5              $ 10,236.47
     Education Division                          10                30,013.73
     Human Resources Division                    10                 6,968.02
     Information Technology                      10                47,983.68
     Logistics Division                          10                11,544.29
     Resource Management Office                   5                12,194.07
     Total                                       50             $118,940.26


    Procurement Office Transactions. From the universe of 1,270 purchase card
    transactions (valued at $36,107,497.51), we judgmentally selected
    113 transactions for review as shown in Table 2. We made our selections based
    on either a transaction merchant category code (MCC) or a contractor, based on
    volume of purchase card payments to a particular contractor.


                                        3
      Table 2. DoDDS-Europe Procurement Office Sample Transactions
         Sample Group (MCC or          Transactions      Transactions
                 Contractor)             Reviewed        Dollar Value
                     Sample Groups With Multiple Merchants
     Car rentals                                  8        $ 54,237.10
     Convenience checks                           4              5,496.62
     Educational services                         9           127,332.01
     Finance charges                              4                109.94
     Hotels                                      11           447,670.69
     Tours                                        3           670,413.60
     Transportation                               3           492,341.83
                         Single Merchant Sample Groups
     Broadland Guarding                          35         2,306,623.77
     GTSI                                        17         3,825,409.20
     Naval Exchange Rota                          6              2,874.30
     Pacific Star                                 4           422,215.00
     Side Bar                                     2             31,838.40
     Sun Fund                                     2             14,654.37
     Tampa Bay Academy                            4             39,267.00
     Wenger                                       1              2,409.00
             Total                              113        $8,442,892.83

Purchase Card Controls
    For the 163 purchase card transactions selected for review, we determined
    whether the transactions were legitimate and whether purchases had the required
    pre-approvals. Additionally, we evaluated the overall control environment for
    both the area and procurement offices. Our audit criteria was taken from the
    “Department of Defense Government Charge Card Guidebook for Establishing
    and Managing Purchase, Travel, and Fuel Card Programs,” January 20, 2006,
    (DoD Charge Card Guidebook) and “Department of Defense Education Activity
    Government Purchase Card Users Manual,” August 15, 2005, (DoDEA GPC
    Users Manual). Specifically, we tested the following key requirements.

    Legitimate Government Transaction. The DoD Charge Card Guidebook
    requires cardholders to ensure that all purchase card purchases are proper, legal,
    and reasonable, and satisfy a bone fide need. The DoD Charge Card Guidebook
    also specifies that approving officials are responsible for ensuring that their
    cardholders’ transactions are legal, proper, mission essential, and correct in
    accordance with governmental rules and regulations. Additionally, the DoDEA
    GPC Users Manual lists the key steps in making a purchase using the GPC. A
    key step is for the cardholder to obtain prior approval from the approving official
                                         4
before the cardholder makes a purchase. Cardholders are required to submit a
completed DoDEA Form 8052, “Request For Approval Prior to GPC Purchase,”
to the approving official for approval and signature. DoDEA Form 8052 includes
a block for the cardholder to describe the products or services to be purchased.

         Area Office. To determine whether the 50 area office GPC transactions
were legitimate, we reviewed either the DoDEA Form 8052 or an alternate form
(that is, “DoDDS Governmentwide Commercial Purchase Card Purchase
Request-Approval-Documentation-Reporting Form”) that was being used by one
of the cardholders. The documents we reviewed contained sufficient evidence for
us to conclude that all but one of the transactions were legitimate and had the
required pre-approvals. The DoDDS-Europe APC had already identified the one
transaction that had a discrepancy, and management had taken appropriate
corrective action (additional details provided in the discussion of DoDEA GPC
Inspections).

        Procurement Office. To determine whether the 113 procurement office
GPC transactions were legitimate, we reviewed the contract’s statement of work
for the description of the goods or services. We also reviewed related contract
file documentation such as contractor invoices, receiving reports, and
authorization for payment letters. For further clarification, we discussed the
contract and GPC payment with the cardholder and the APC. The documentation
we reviewed contained sufficient evidence for us to conclude that all
113 transactions were legitimate.

In addition to determining the legitimacy of each GPC payment, we verified that
each contract reviewed had the required payment clause. The DoDEA GPC Users
Manual requires that “FAR 52.232-36 Payment by Third Party (May 1999)” be
included in the contract if the GPC is used as a method of payment. The contracts
in our sample had the third-party clause in the contract, were modified to include
this clause, or had “payment by a Visa card” notated in the payment block
(block 18A) of Standard Form 1449, “Solicitation/Contract/Order For
Commercial Items.”

Purchase Logs. The DoD Charge Card Guidebook requires cardholders to
maintain either an electronic or a manual log for each purchase card transaction.
We verified that each of the 17 cardholders selected for review maintained
purchase logs and complied with DoD policy. As part of our review of the
individual transactions, we verified that the cardholders entered each purchase
transaction in their respective purchase log.

Bank Statement Reconciliation, Review, and Approval. The DoD Charge
Card Guidebook requires cardholders to reconcile their bank statements to their
purchase logs. The cardholders are also required to forward their reconciled bank
statements to their approving official for review. The approving official is
required to approve or reject each transaction for each of their cardholders and to
certify the bank statements as legal, proper, and correct.

As part of our review of the 163 GPC transactions, we reviewed the related
monthly bank statements. We determined that the 17 responsible cardholders
reconciled their bank statements against their purchase logs, forwarded the

                                     5
statements to their approving official, and the approving official certified each of
the monthly statements as reviewed and approved them by signing the statements.

Span of Control. The DoD Charge Card Guidebook indicated that the DoD
standard for the span of control is a ratio of not more than seven cardholders for
each approving official.

We determined that the span of control for Headquarters, DoDDS-Europe was
appropriate by reviewing its organizational charts. For example, the education
section of the area office had two approving officials and four cardholders. The
procurement office had two branches. The chief of each branch was the
approving official. One branch had four cardholders and the other branch had two
cardholders.

Training. The DoDEA GPC Users Manual requires all Government Purchase
Card Program participants to complete three mandatory training courses before
they are issued a letter of appointment. The three mandatory courses are:

   •   Defense Acquisition University on-line course titled “Government
       Purchase Card Tutorial;”

   •   on-line Section 508 compliance training titled “Micro-purchases and
       Section 508;” and

   •   DoDEA APC-unique training, which includes DoDEA-wide policies and
       procedures and any special requirements for the region.

We reviewed the cardholder and approving official training files maintained by
the APC. Our review of the training files for 6 of the 17 cardholders and their
responsible approving officials showed that they were current in their training.
Therefore, we concluded that the cardholders met their training requirements and
the APC monitored the training.

DoDEA GPC Inspections. The DoDEA GPC Users Manual requires APCs to
evaluate (inspect) the effectiveness, viability, and success of its GPC programs.
Our review of the Headquarters, DoDDS-Europe APC schedule of inspections
showed that she planned for and effectively conducted required GPC inspections.
To illustrate, before our review, she had already identified the one GPC
transaction in our sample that was improper and had taken appropriate corrective
action.

The DoD Charge Card Guidebook defines an improper purchase as a transaction
intended for Government use but is not permitted by law, regulation, or
organization policy. One transaction in our sample, a purchase of light
refreshments, appeared to be improper. The DoDEA GPC Users Manual states
that the Comptroller General has held that agencies may not use appropriated
funds to pay for light refreshments for business meetings conducted by
Government agencies at an employee’s duty station.

The improper GPC transaction in our sample was an agreement entered between a
DoDDS-Europe cardholder and a hotel at the duty station to rent a conference

                                     6
    room and to provide light refreshments for the meeting participants. During the
    all-day meeting, the participants (including the GPC approving official) ate lunch
    at the hotel’s restaurant. The APC discovered the improper purchase in February
    2007 while inspecting the cardholder’s GPC transactions. Because the approving
    official approved the purchase of light refreshments and lunch in conjunction with
    the meeting, the APC recommended that the approving official reimburse the
    Government for the improper purchase of refreshments and meals in the amount
    of $172.52. The approving official reimbursed the U.S. Treasury in April 2007.

Conclusion
    Headquarters, DoDDS-Europe internal controls over the use of its purchase cards
    were generally effective. Our review of 163 GPC transactions and the overall
    control environment revealed proper compliance with applicable regulations and
    no material weaknesses.




                                        7
Appendix A. Scope and Methodology
   We conducted this performance audit from June 2007 through December 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We judgmentally selected a total of 163 purchase card transactions from
   Headquarters, DoDDS-Europe area and procurement offices for review. The area
   office is located in the American Arms Office Tower, Wiesbaden, Germany, and
   the procurement office is located in Mainz-Kastel, Germany.

   Area Office Transactions. We judgmentally selected 50 transactions (valued at
   $118,940.26) made by area office cardholders. Our sample included 49 purchase
   transactions and 1 rebate transaction. We selected these transactions from a
   universe of 1,058 transactions valued at $1,088,995.11. The transactions covered
   the period March 1, 2006, through April 29, 2007. We reviewed transactions
   from cardholders from each of the area office subordinate work areas:
   Information Technology, Education, Logistics, Human Resources, Resource
   Management, and the Director’s office.

   Procurement Office Transactions. We judgmentally selected 113 payment
   transactions (valued at $8,442,892.83) made by procurement office cardholders.
   Our sample included 98 contract payment transactions, 2 convenience checks,
   2 foreign drafts, 4 financial transactions (related to the use of convenience checks
   and foreign drafts), and 7 duplicate charges or credits for the duplicate charges (to
   ensure that any duplicate charges were corrected). We selected these transactions
   from a universe of 1,270 transactions valued at $36,107,497.51. These
   transactions covered the period March 1, 2006, through April 27, 2007.

   To perform this audit, we reviewed documents for the purchase and payment
   transactions at the Headquarters, DoDDS-Europe procurement office. We
   reviewed purchase card requests, contracts, authorization for payment letters,
   vendor invoices or receipts, purchase card logs, receiving reports, U.S. Bank
   purchase card monthly statements, and other documents as needed for each
   sample item. We interviewed the APC and other officials involved with the
   Headquarters, DoDDS-Europe GPC Program.

   Use of Computer-Processed Data. We neither evaluated the general and
   application controls of the U.S. Bank system that processes purchase card
   transactions and cardholder and approving official data nor did we evaluate the
   general and application controls of Defense Manpower Data Center. The
   Defense Manpower Data Center obtains purchase card information from U.S.
   Bank and provides it to the DoD OIG Data Mining Division. The DoD OIG Data
   Mining Division then provided the data to us. We determined data reliability by
   comparing the data provided to us with source documents. Source documents

                                         8
    included vendor invoices and monthly statements from U.S. Bank. Not
    evaluating the controls did not affect the results of the audit.

    Use of Technical Assistance. The DoD OIG Data Mining Division assisted with
    the audit. The DoD OIG Data Mining Division provided us with the
    Headquarters, DoDDS-Europe purchase card transactions and lists of cardholders
    and approving officials.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage on one aspect of the “Financial Management” high-risk area.

Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (IG) issued
    five reports discussing DoDEA Government Purchase Card Programs.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports/index.html.

DoD IG
    DoD IG Report No. D-2008-013, “Government Purchase Card Controls at DoD
    Schools in Japan,” November 8, 2007

    DoD IG Report No. D2008-004, “Government Purchase Card Controls at DoD
    Schools in Guam,” October 24, 2007

    DoD IG Report No. D-2008-001, “Government Purchase Card Controls at DoD
    Schools in Korea,” October 11, 2007

    DoD IG Report No. D-2007-092, “Government Purchase Card Controls at DoD
    Schools on Okinawa,” May 8, 2007

    DoD IG Report No. D-2005-006, “Overseas Purchase Card Transactions by DoD
    Dependents Schools-Europe,” October 20, 2004




                                        9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Director, DoD Education Activity
   Director, DoD Dependents School-Europe

Non-Defense Federal Organization

Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs




                                          10
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
James L. Kornides
John K. Issel
Terry D. Holdren
Peter G. Bliley
Ann L. Thompson
Karen M. Bennett
Meredith H. Johnson
